OIG Investigative Reports Press Release Indiaanapolis Indiana., July 17, 2014 - United States Attorney Announces Felon in Possession Sentence
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Joseph H. Hogsett
Southern District of Indiana
FOR IMMEDIATE RELEASE:
Thursday, July 17, 2014
www.usdoj.gov/usao/ins/
CONTACT: TIM HORTY
(317) 229-2409; Cell (317) 716-4250
tim.horty@usdoj.gov
United States Attorney Announces Felon in Possession Sentence
Hogsett continues aggressive fight against illegal firearm possession to protect Hoosiers
PRESS RELEASE
INDIANAPOLIS– Joseph H. Hogsett, United States Attorney, today announced the conviction and sentencing of Donald T. Bryant, 43, Avon, for one count of felon in possession of a firearm, one count of use of false identification in the acquisition of a firearm, and one count of aggravated identity theft. Bryant was sentenced to 78 months (6 ½ years), in federal prison by U.S. District Judge Jane Magnus-Stinson.
“My office has been relentlessly committed to taking illegal gun owners off the streets,” said Hogsett. “Our communities have suffered too much violence at the hands of felons in possession of firearms. We continue to do our part to help stop the senseless violence suffered in our Hoosier communities.”
On August 30, 2012, Bryant purchased a Smith and Wesson, 9mm pistol from Fort Liberty Firearms, a firearms dealer in Avon, Indiana. When making the purchase, Bryant identified himself as “R.B.” a man who died in Lake County, Indiana in 1989. Bryant provided an Indiana Identification Card and other documents in the name of “R.B.” displaying photographs of Bryant, not “R.B.”, on them.
It is illegal to purchase a firearm using a “straw-man” purchase. Usually, this illegal transaction happens when a felon asks a non-felon to purchase a firearm for him or her. Bryant used the identity of a deceased man, to make the illegal purchase.
According to federal law, it is illegal for a person convicted of a felony to possess a firearm. Between 1992 and 2011, Bryant had acquired five separate felony convictions, each with a prison sentence of a year or more. In 2002 Bryant was sentenced to 78 months in federal prison for a firearms conviction in the Northern District of Indiana. He then violated his supervised release conditions and was returned to the Bureau of Prisons for an additional 18 months.
“This case shows the success of our Violent Crime Initiative. One of the most effective ways to prevent violence in our communities is to make sure those with prior felonies are not armed,” said Hogsett.
The United States Attorney’s Violent Crime Initiative began in 2011, and is intended to focus on the “worst of the worst” violent offenders by marshaling federal resources to provide local partners the additional tools they may need to succeed in their effort to promote peace. In 2011, only 14 firearms charges were filed. Since then, over 325 firearms cases have been prosecuted. By charging these cases federally, violent felons must serve 85 % of their sentence at a minimum.
According to Assistant United States Attorney Mathew Rinka, who prosecuted this case for the government, Bryant must pay $14,800 in restitution to the Department of Education for fraudulently obtaining student loans and serve three years of supervised release after his sentence.
Top
Printable view
Last Modified: 07/29/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov